No. 20-1306
CAPITAL CASE
IN THE

SUPREME COURT OF THE UNITED STATES
ALAN DALE WALKER,
Petitioner

v.
STATE OF MISSISSIPPI,
Respondent

On Petition for a Writ of Certiorari to
the Supreme Court of Mississippi

BRIEF IN OPPOSITION

LYNN FITCH
Attorney General
LADONNA C. HOLLAND
Special Assistant Attorney General
Counsel of Record
STATE OF MISSISSIPPI
OFFICE OF THE ATTORNEY GENERAL
P.O. Box 220
Jackson, Mississippi 39205-0220
(601) 359-3827
ladonna.holland@ago.ms.gov

CAPITAL CASE
QUESTIONS PRESENTED
Petitioner was convicted for the capital murder of a teenage girl who he and
another man raped, beat, strangled, choked, and drowned before setting her body on
fire. Trial counsel’s strategy at sentencing was to humanize petitioner. Counsel thus
presented testimony that petitioner was a loving father, that he was a good employee
liked by his peers, and that he once saved a baby from a burning building. The jury
still sentenced petitioner to death. After his direct appeal and one round of postconviction review failed, petitioner again sought post-conviction relief, contending
that his trial counsel should have used a different sentencing strategy, one that would
have told the jury about petitioner’s childhood and alleged brain impairment. The
state post-conviction trial court rejected petitioner’s claim under Strickland v.
Washington, 466 U.S. 668 (1984). The court concluded that petitioner failed to
establish that his trial counsel performed deficiently and that, in any event,
petitioner was not prejudiced by counsel’s performance. The Mississippi Supreme
Court affirmed, upholding the conclusion that petitioner failed to establish that trial
counsel’s performance was deficient. The Mississippi Supreme Court did not address
the lower court’s finding that petitioner also failed to establish prejudice.
The questions presented are (1) whether the Mississippi Supreme Court erred
in upholding the post-conviction court’s fact-intensive ruling that trial counsel did not
perform deficiently, and (2) whether the Mississippi Supreme Court’s judgment is
independently correct because, as the post-conviction trial court found, petitioner was
not prejudiced by his trial counsel’s strategy.

TABLE OF CONTENTS
TABLE OF AUTHORITIES .................................................................................................... i
OPINION BELOW .............................................................................................................. 1
JURISDICTION ................................................................................................................. 1
STATEMENT OF THE CASE ................................................................................................ 1
ARGUMENT .................................................................................................................... 19
CONCLUSION ................................................................................................................. 35
APPENDIX ...................................................................................................................... 36

ii

TABLE OF AUTHORITIES
Federal Cases
Andrus v. Texas, 140 S. Ct. 1875 (2020) ............................................................. passim
Burger v. Kemp, 483 U.S. 776 (1987) .......................................................................... 22
Darden v. Wainwright, 477 U.S. 168 (1986) ............................................................... 22
Rompilla v. Beard, 545 U.S. 374 (2005).............................................. 24, 25, 31, 33, 34
Sears v. Upton, 561 U.S. 945 (2010)............................................................................ 32
Strickland v. Washington, 466 U.S. 668 (1984) .................................................. passim
Wiggins v. Smith, 539 U.S. 510 (2003) ............................................................... passim
Williams v. Taylor, 529 U.S. 362 (2000) ............................................................. passim
State Cases
Walker v. State, 303 So. 3d 720 (Miss. 2020) ...................................................... passim
Walker v. State, 131 So. 3d 562 (Miss. 2013) ................................................................ 8
Walker v. State, 671 So. 2d 581 (Miss. 1995) ...................................................... passim
Walker v. State, 863 So. 2d 1 (Miss. 2003) .......................................................... passim
Federal Statutes
28 U.S.C. § 1257(a) ........................................................................................................ 1

iii

OPINION BELOW
The opinion of the Mississippi Supreme Court affirming the denial of
petitioner’s second petition for post-conviction relief (Pet. App. A) is reported at 303
So. 3d 720 (Miss. 2020).
JURISDICTION
The Mississippi Supreme Court entered its judgment on June 25, 2020. On
October 8, 2020, the court withdrew its prior opinion, issued a modified opinion, and
denied rehearing. Pet. App. A. The petition for a writ of certiorari was filed on March
8, 2021. This Court’s jurisdiction is invoked under 28 U.S.C. § 1257(a).
STATEMENT
More than 30 years ago, petitioner Alan Dale Walker kidnapped 19-year-old
Konya Edwards, repeatedly raped her, hit her in the face again and again, choked
her, forced her to put her chin on a log and then stomped the back of her neck seven
or eight times, choked her and drowned her, set her body on fire with gasoline, then
took her black dress home with him where, 45 minutes after killing her, he was taking
photographs with friends and “acting like nothing had happened.” Walker v. State,
671 So. 2d 581, 590 (Miss. 1995). Petitioner was convicted of murder, rape, and
kidnapping, and was sentenced to death. The state courts affirmed his convictions
and sentences and denied his first application for post-conviction relief, rejecting in
both rounds of review a raft of arguments challenging his convictions and sentence.
This Court denied petitions for certiorari seeking review of both the direct-review and
first post-conviction-review proceedings. The present petition for certiorari arises
from the state courts’ rejection of petitioner’s second motion for post-conviction relief.
1. On September 8, 1990, Konya Edwards went out for the night after her
afternoon shift at a Long Beach, Mississippi restaurant. 671 So. 2d at 588. She went
to the Fiesta Club, where she met petitioner and his friend Jason Riser for the first
1

time. Id. She also met Trina Perry, petitioner’s girlfriend. Id. The four later left the
Fiesta Club, and Riser offered to give Edwards a ride home. See id. at 589. Eventually
Perry broke off from the group, with a plan to meet up later. See id.
Petitioner and Riser took Edwards to Crystal Lake. See id. At the lake, Riser
later testified, petitioner “got out of the truck and said we was gonna rape this girl.”
Id. Petitioner “began ‘messing’ with Edwards, grabbing her legs and breasts” and
“fondling” her. Id. Edwards—who was intoxicated and had passed out—“woke up and
became loud in her resistance to [petitioner’s] fondling.” Id. Petitioner “hit her in the
face several times” then asked her “if she wanted to live or die.” Id. Petitioner took
Edwards toward the lake. Id. “Whenever Edwards resisted physically or vocally,”
petitioner “would hit her and repeatedly say ‘live or die.’” Id. Petitioner “instructed
Edwards to take off all her clothes.” Id. After she had done so, petitioner “struck her
again in the face and told her to lie down on the ground.” Id. He then “attempted to
rape” Edwards, but apparently was unable to do so “right now.” Id. So petitioner “told
Riser to take his turn,” and “Riser raped Edwards by vaginal intercourse.” Id.
Petitioner then “struck” Edwards “in the face with his fist while she was still lying
down,” told her “to perform oral sex on Riser while [petitioner] had anal sex with her,”
then “forced her to perform oral sex” on him after she said “she couldn’t do that.” Id.
Edwards bit petitioner’s penis, and “[h]e hit her again with his fist and shook her,
telling her she had better cooperate so she wouldn’t get hurt.” Id. Riser reported that
“both he and [petitioner] had anal intercourse with Edwards.” When petitioner
“attempted anal sex” on Edwards, she “told him she couldn’t and turned around and
slapped him.” Id. The two struggled, and petitioner “began choking Edwards” while
Riser watched. Id. Petitioner told Riser that he “would have to kill Edwards.” Id.
Petitioner asked Edwards “if she wanted to live or die”; “Edwards said she
wanted to live.” Id. After struggling with Edwards more and hitting her again,
2

petitioner and Riser both dressed, and petitioner “instructed Edwards to lay flat on
her stomach and put her chin on a nearby log.” Id. After checking the log’s placement,
petitioner “looked down at Edwards then stomped on the back of her neck, seven or
eight times.” Id. (internal quotation marks omitted). “Edwards rolled over, bleeding,
and ran to Riser, saying ‘help me, Jason, help me, don’t let him do this no more.’” Id.
Petitioner eventually told Edwards “that they would take her down to the
water, clean her off and let her go.” Id. When they neared the water, petitioner
undressed again and went into the water with Edwards. Id. He told her to turn
around, “then began choking her and pushing her head beneath the water.” Id. at
589-90. “A lot of splashing was going on, with Edwards surfacing and struggling for
about 10 minutes.” Id. at 590. “Eventually, the splashing stopped.” Id.
After taking Edwards out of the lake, petitioner and Riser placed her body on
the ground. See id. Petitioner then “looked around, picked up a stick, and inserted it
into [Edwards’] vagina, declaring [that] he had ‘always wanted to do that.’” Id.
Petitioner decided that “Edwards would have to be burned.” Id. He and Riser left, got
gasoline, came back, and poured gasoline on Edwards’ body and lit it on fire. Id.
Petitioner took Edwards’ dress with him and returned to his house trailer. See
id. Petitioner, Riser, and Perry (who had rejoined them at the trailer) stayed up late
that night “talking and taking Polaroid snapshots.” Id. “As Riser put it, he and
[petitioner], some 45 minutes after the killing of Edwards, were ‘acting like nothing
had happened.’” Id. Petitioner later told Perry that he had killed Edwards. See id.
A forensic pathologist later testified that most of Edwards’ skin had been
burned, her lungs and bronchial tubes were filled with bloody fluid, and she had
intracranial hemorrhaging, extensive bruised tissue, and a fractured neck. Id. The
causes of death was “asphyxiation caused by severe pressure to her throat resulting

3

in a fractured neck bone, and from being held underwater to the point that her lungs
filled with fluid. ” Id. at 590, 598.
2. a. Petitioner was indicted for capital murder, rape, and kidnapping. Id. at
587. He confessed to police that he had murdered Edwards (and murdered another
young woman about a month before), but his trial counsel successfully moved to
suppress the confession because he was intoxicated during the interrogation. Pet.
App. 3 (¶ 7); Walker v. Epps, No. 1:97-cv-00029-ks (S.D. Miss. March 27, 2012) (Doc.
118 at 2, 4). His trial counsel also successfully moved for a change of venue. Id. at 8.
Riser made a deal with the State for life in prison in exchange for his testimony
against petitioner. Id. at 31. Riser testified, as set forth above, about the assault,
murder, and surrounding events. 671 So. 2d. at 588-90. Perry testified that when she
rejoined petitioner and Riser at his trailer, petitioner was shirtless and his jeans “had
a reddish colored stain on the leg.” Id. at 598. Two days later, Perry saw Edwards’
photograph in a newspaper and realized that she had been murdered after leaving
the club with them. Id.at 590. She went to authorities and gave a statement that led
to a search warrant that was executed on petitioner’s home. Id. at 590, 598. In the
search, officers found Edwards’ dress. Id. at 588, 599-600.
The jury found petitioner guilty on all counts.
b. At the sentencing phase, petitioner’s trial counsel successfully moved to
exclude victim-impact testimony and secured an order preventing the State from
introducing petitioner’s confession at sentencing. Walker, No. 1:97-cv-00029-ks (Doc.
118 at 9). In an effort to humanize petitioner to avoid the death penalty, trial counsel
presented testimony from several of petitioner’s family members and an employer.
Mike Maniscalo, a construction foreman and petitioner’s former boss, testified
that Petitioner was a good, dependable employee who was liked by his co-workers. Id.
at 89-90. Petitioner “[n]ever had any problems with anybody on the job.” Id. at 90.
4

Leon Frederick, petitioner’s half-brother, testified that petitioner took care of
him and their younger sister, Amanda Frederick, who were both still in school at the
time of the murder, while their mother worked. Id. Petitioner watched them at home
and drove them to school and other places. Id. Leon testified that petitioner also took
care of his baby daughter. Id. Leon told the jury that his brother should receive the
same sentence as Riser (life) because “they were both there.” Id. Leon also cited
petitioner’s then-16-month-old daughter as a consideration for the jury’s mercy. Id.
Amanda testified that petitioner was a nice brother who was never mean to
her. Id. at 90-91. Amanda, a sixth grader at the time of trial, cried while she told the
jury about petitioner’s baby daughter. Id. at 91. She testified that petitioner asked
their mother to take his income-tax refund and spend it on his daughter. Id.
Anita Frederick, petitioner’s mother, testified to petitioner’s background and
upbringing. She told the jury that after she and petitioner’s father, Ronald Walker,
divorced when petitioner was four, she moved with her sons to Mississippi from
Florida. Id. She testified that when petitioner was a teenager, she worked nights and
petitioner took care of Leon and Amanda. Id. Petitioner also “worked nearly all the
time” and paid his mother rent. Id.
Anita also told the jury that petitioner had received a certificate of appreciation
for saving a baby from a burning building. Id. Petitioner and a friend were driving
home when a woman whose house was on fire flagged them down and told them her
child was inside. Id. Petitioner ran in the burning house, got the baby out of bed,
broke out a window, and handed the baby to someone outside. Id. His heroic efforts
were recognized at a ceremony where he received a certificate of honor and met the
child whose life he saved. Id. at 94. The certificate was entered into evidence. Id.

5

Anita also told the jury that petitioner had a baby daughter he loved and
provided for. Id. at 92-93. Like Leon, Anita asked the jury to give petitioner the same
sentence Riser received. Id. at 94.
Petitioner also addressed the jury and expressed remorse, stating “he wanted
to tell the victim’s family, Riser’s family and especially his own family that he was
sorry ‘for what has happened.’” Walker, 671 So. 2d. at 615.
The sentencing jury sentenced petitioner to death, finding that the State
proved the submitted aggravating circumstances—that petitioner killed Edwards
while engaged in the commission of sexual battery and that the capital offense was
committed for the purpose of avoiding or preventing a lawful arrest—beyond a
reasonable doubt and that the aggravating circumstances were not outweighed by
mitigating evidence. Id. at 611-12, 631.
c. In 1995, the Mississippi Supreme Court affirmed petitioner’s convictions and
sentences on direct appeal, rejecting twenty-two assignment of error. Id. at 587-631.
This Court denied certiorari. Walker v. Mississippi, No. 96-5259.
In 2003, the Mississippi Supreme Court denied petitioner’s first motion for
post-conviction relief. Walker v. State, 863 So. 2d 1 (Miss. 2003). Among other rulings,
the court rejected nine arguments for why petitioner’s trial counsel had provided
ineffective assistance at the guilt or sentencing phase. Id. at 7-8, 10-24. This Court
denied certiorari. Walker v. Mississippi, No. 03-10649.
In 2012, a federal district court denied petitioner’s habeas petition. Walker v.
Epps, No. 1:97-cv-00029-ks (S.D. Miss. March 27, 2012) (Doc. 118). The court rejected
(among other claims) eight arguments of ineffective assistance of trial counsel. Id. at
67-104. Among other things, petitioner claimed that trial counsel had been ineffective
for “failing to prepare for the possibility that Jason Riser would plead guilty and
testify against the Petitioner,” and for “failing to investigate and present evidence at
6

the sentencing phase.” Id. at 87. Although the district court ruled that the ineffectiveassistance claims were procedurally barred because they had not yet been presented
to the State’s highest court, it also concluded that the claims lacked merit. Id. The
court found that the record clearly established that trial counsel was adequately
prepared to cross-examine Riser. Id. at 88. And in analyzing petitioner’s claim that
trial counsel failed to conduct a mitigation investigation or present mitigating
evidence, the court recounted the mitigation evidence presented at the sentencing
phase and compared it to the evidence habeas counsel later discovered and claimed
should have been discovered and presented by trial counsel. Id. at 87-104. The court
found that much of the evidence that petitioner offered to support this ineffectiveassistance claim did not pertain to petitioner personally. Id. at 94. Various “problems
of his parents, grandparents, and neighbors were just not particularly relevant,” the
court observed, because they did not pertain to petitioner personally. Id. at 102. As
for portions of the family-member affidavits that did pertain to petitioner, the court
concluded that the information was either cumulative or double-edged (aggravating
and mitigating). Id. at 101-102. The court found that evidence about “the general
environment in which [petitioner] lived,” a “neighborhood [] full of unsavory
characters[,] [d]rug and alcohol abuse ... , promiscuity, even at an early age[,] ... little
or no supervision of older children or teenagers,” “could already have been gleaned by
the jurors from the testimony at trial.” Id. at 102. And evidence about alcohol and
drug use and an ex-girlfriend’s claim that petitioner had a violent temper could be
considered “double edged” by a sentencing jury and may “provide[] an independent
basis for moral judgment by the jury.” Id. at 101-102. The court concluded that trial
counsel was not ineffective for not presenting cumulative evidence, double-edged
evidence, “possibly harmful” evidence, or evidence that pertained to people other than
petitioner at the sentencing phase. Id.
7

3. a. In 2012, petitioner filed a successive motion for post-conviction relief with
the Mississippi Supreme Court. That court granted him leave to file his motion in
trial court and directed the post-conviction trial court to conduct a hearing to
determine “whether [petitioner’s] trial counsel was ineffective in searching for and
presenting mitigation evidence during the penalty phase of his trial, and whether
[petitioner] suffered prejudice from such deficient performance, if any, sufficient to
undermine the confidence in the outcome actually reached at sentencing.” Walker v.
State, 131 So. 3d 562, 564 (Miss. 2013). The five-justice majority found that affidavits
attached to the successive petition showed that petitioner “potentially” received
ineffective assistance from his trial counsel. Id. at 564. Four justices dissented.
b. At his post-conviction hearing, petitioner presented testimony from seven
family members and a family friend, testimony from lead trial counsel (Earl Stegall),
and expert testimony from psychologists Matthew Mendel and Robert Shaffer.
The lay-witness testimony suggested that petitioner had a bad childhood and
identified a number of events concerning alleged physical abuse, alleged sexual abuse
or impropriety, and a decline in petitioner’s behavior over time as he spent more time
in his mother’s home and less time at his father’s.
As to alleged physical abuse: Petitioner’s brother Terry recalled that Winfred
Frederick, Anita’s second husband, was “always drunk,” but never abusive. 1 Resp.
App. B 209. Terry testified that Anita did whip the kids with a belt as a form of
punishment and discipline, which Terry viewed as abusive. Id. at 213, 221.
Petitioner’s father Ronald testified that petitioner never indicated that Anita was
abusive. Id. at 202. Leon recalled that his father, Winfred, spanked him “once in a

Petitioner’s post-conviction counsel tried to refresh Terry’s memory with an affidavit that
Terry allegedly executed a year before the hearing that said that Winifred had hit him, but
Terry said that he had no recollection of that happening. Resp. App. B 209-210, 225. Terry
testified that Winifred never hit or “put[] his hands on” him or petitioner. Id. at 221-22.
8

1

blue moon.” Id. at 242. Winfred spanked with his hand; Anita spanked with a belt.
Id. at 242.
As to alleged sexual impropriety: Terry recalled that when Anita and Winifred
were married, they lived near the Reyers, who were family members of Winfred. Id.
at 213-14. Terry testified that the three Reyer sisters, who were “older kids,” had
inappropriate sexual contact with him and petitioner when they were around 12 and
14 years old. Id. at 214-21. The Reyer sisters “would all play with you and suck your
penis, do things of sexual—sexual things.” Id. at 215. Terry did not witness any sexual
interactions between petitioner and the Reyer sisters. Id. at 220.
One of Anita’s former co-workers, Vera Faye Breland, also testified.
Petitioner’s post-conviction counsel asked Breland whether she saw “any touching
between [petitioner] and his mother at your workplace.” Id. at 252. Breland
responded that she saw “him either tickling her or either he pinched her.” Id. Breland
described it as “more of a playful type situation,” but also said: “I didn’t actually see
him actually pinch her inappropriately, other than I thought at the time, and
speaking with her, you know, it was like he pinched her on her breast, and I thought
was inappropriate.” Id. Breland added that “when he was interacting with his
mother,” “I don’t know whether they were tickling or playing, you know, and at the
same time, his hand was around her up in here, and that’s why I thought when she
mentioned or talking with her afterwards. That was her words, that actually was not
my words.” Id. at 252-53.
As to petitioner’s relationships with his parents and the changes in his
behavior over time: Petitioner and Terry stayed with their father in Alaska for oneyear stints three or four times in childhood and young adulthood. Resp. App. B 116,
167-68, 184-85. The boys were happy and did well when they stayed with Ronald in
Alaska. Id. at 168-69. Ronald recalled no behavior problems. Id. Terry and petitioner
9

finished their seventh- and ninth-grade years, respectively, when Terry moved in
permanently with his father and petitioner moved back to his mother’s home in
Mississippi. Id. at 117, 207.
Amanda, Anita, and Anita’s sister testified that Anita worked long hours at
two jobs to support her children and always put them first. Id. at 86, 169, 208. But
due to her long work hours, petitioner often took care of Leon and Amanda. Id. at 86,
208. Anita did not have control over petitioner during his teenage years because she
worked so much. Id. at 138. Petitioner started “running the roads” and drinking beer
and smoking marijuana with friends when he was 15 or 16. Id. at 87, 96, 117, 121,
135-137, 170-71, 237. 2 In his upper teens or early twenties, petitioner and some of his
neighborhood friends hung around a couple of older men who had children petitioner’s
age. Id. at 89, 150-51, 238. One of the men influenced petitioner and his friends to
“steal stuff” for him and the other man grew “his own marijuana” in a closet in his
house. Id. at 89, 127-29, 150-51. Terry characterized petitioner’s Mississippi friends
as “corrupt.” Id. at 217. Anita did not approve of petitioner’s friends when he was a
teenager and young adult. Id. at 158-59.
When 17-year-old petitioner went to stay with his father in Alaska, Ronald
noticed he was “[j]ust a little bit different in a stronger will.” Id. at 188-89. Ronald
characterized him as a little rebellious. Id. at 189. Ronald tried to “straighten him
out and set him on the right road” while petitioner stayed with him. Id. at 192. Ronald
and his wife took petitioner to church, where he was baptized, and Ronald noticed a
positive difference in him. Id. at 194. Petitioner last stayed with his father a year or
two before he murdered Konya Edwards. Id. at 143.

Amanda testified that petitioner smoked marijuana as a teenager, but Leon testified that
he never saw petitioner smoke marijuana. Resp. App. B 237-238. Anita also never saw
petitioner smoke marijuana but testified she had smelled it on him before. Id. at 136.
10
2

Anita and Amanda testified that petitioner’s trial attorneys did not meet with
or speak with them before trial. Resp. App. B 94, 134-135. Both said that had the trial
attorneys spoken with them before trial they would have relayed the information they
testified to at the evidentiary hearing about petitioner’s upbringing. Id. at 95, 135.
Nellie, Terry, and Ronald testified that trial counsel never contacted them, and they
also would have relayed the same information they testified to at the evidentiary
hearing. Id. at 171, 195, 218-19.
Petitioner’s lead trial counsel, Earl Stegall, testified that he suffered a stroke
in 2005 and, as a result, had memory problems. Pet. App. 3 (¶ 6). (Petitioner did not
call Stegall’s co-counsel to testify.) When asked if the stroke “affected [his] ability to
testify at this hearing,” and whether he had “sufficient recollection of the facts of this
case,” Stegall responded that after his stroke he “couldn’t literally remember” his
son’s names, yet that over time his memory had “gotten a lot, lot better.” Resp. App.
B 273. He said that he “still ha[d] problems with memory,” however. Id. And
“throughout his testimony, Stegall exhibited a significant inability to recall past
events.” Pet. App. 3 (¶ 6). When asked if he had “any real independent recollection of
what took place at the time of trial and what [his] decisions were at the time of trial,”
he said, “I can’t answer that direct yes or no. I can say in part this. I can remember
certain parts of it perfectly clear. I can’t say that I remember all of it that way.” Resp.
App. B 289-90. Stegall’s files were destroyed during Hurricane Katrina. Id. at 275.
Stegall testified that he handled “quite a few” capital cases “on a regular basis”
over the course of his practice and “won some of them, too.” Id. at 288-89. Petitioner’s
was the only capital case Stegall succeeded in getting a confession suppressed. Id. at
276. After getting the confession suppressed, Stegall’s guilt-phase strategy was going
to be that petitioner “didn’t do it, [Riser] did.” Id. at 276. Stegall also thought that
petitioner may receive a plea bargain after his confession was suppressed. Id. at 27811

79. But that option was walled off when, shortly before trial, Riser agreed to testify
against petitioner. Id. at 276-78.
Although he could not recall details of his representation of petitioner, Stegall
did not testify that he did not conduct a mitigation investigation or prepare for the
sentencing phase. Instead, he testified:
[T]he thing that I was going to do, I remember I was going to have him
address the jury rather than have him testify. I think that’s exactly what
we did. And I wanted to—my thing in death penalty cases was to
personalize them. Make them a person, you know. And tell their life
history as well as you could so the jury could look at them and think of
them as a person and not just somebody sitting there charged as a
murderer. And I remember, I don’t have an independent recollection of
this, but I know I must have done it. We had the mother come and
testify, that was the plan, and then a sister or a brother was going to
testify. And I don’t really have a good independent recollection of what
they said or anything to be truthful with you.
Resp. App. B. 279. Stegall testified that he “would say that” it was “very unlikely”
that he went to petitioner’s family members’ homes before trial, but that he “would
have talked to them certainly before they took the stand.” Id. at 279-80. But he lacked
a recollection of other events. He testified that he “d[idn’t] remember at all whether
he met petitioner’s mother, sister, or brother “in person until trial”; that he “c[ouldn’t]
remember at all” whether he met petitioner’s “father or brother in Alaska”; and that
he “d[idn’t] have a memory of” “any contact with family members in Florida.” Id. at
280. He also “just d[idn’t] remember” whether he “file[d] any motions to get an
investigator to help with mitigation evidence.” Id. He did testify that he “would have
used his” co-counsel for investigation, though he “c[ouldn’t] remember” “what she
found.” Id. at 281. When asked if he had a “strategic reason for not doing more of a
mitigation investigation,” he said, “I can’t say that I did. I wish I could remember
better and I could answer your question, but I just can’t remember.” Id. at 285-86.

12

Stegall also did not recall specifics of petitioner’s pretrial psychiatric
evaluation by Dr. Henry Maggio, but did recall that “nothing about [petitioner] had
given him cause to think to hire a psychologist” and that he would not have wanted
the State to have access to any report detailing petitioner’s criminal behavior. Pet.
App. 4-5 (¶ 9); Resp. App. B 286-87, 295-98. (Dr. Maggio had been appointed to
conduct a pretrial competency evaluation, but “but his report provided greater
breadth than just opining on competence to stand trial.” Resp. App. A 584. The
Maggio report also found petitioner had no “defect of intellect, memory or judgment,”
and found “no major psychiatric diagnosis.” Id. The Maggio report included
petitioner’s family, education, and work history; alcohol and drug use; and details
about the murder and other criminal activity. Id.)
Petitioner also presented expert testimony. Dr. Matthew Mendel, a
psychologist, had been retained to “explore the presence of possibly traumatizing
factors in [petitioner’s] life, and to address the impact of those factors upon him, how
they contributed, if at all, to him, to his childhood development, and to becoming the
adult he became.” Resp. App. B 305. Dr. Mendel’s assessment included speaking with
petitioner twice and interviewing family members and friends. Id. at 306-09. His
expert opinion was that petitioner “experienced a wide range of disturbing events
that have had a profound impact upon him,” and that “traumatizing factors had an
impact on [petitioner’s] psychological development at the time of the offense.” Id. at
312. Those “traumatizing factors” included poverty and instability, lack of parental
supervision, being undressed by a babysitter, fatherlessness, inappropriate and
premature sexual activity, and the use of alcohol and marijuana as a teenager. Id. at
314-53. Dr. Robert Shaffer, a forensic psychologist and neuropsychologist, performed
a neuropsychological assessment of petitioner. Id. at 416. His opinion was that

13

petitioner’s neuropsychological profile “is consistent with that of individuals that
have experienced various traumas during their developmental period.” Id. at 424.
c. The post-conviction trial court denied relief. Applying Strickland v.
Washington, 466 U.S. 668 (1984), the court concluded that petitioner failed to
establish deficient performance or prejudice. Pet. App. 5 (¶ 12).
First, the court found that Stegall’s sentencing-phase strategy was reasonable.
Resp. App. A 583. The court explained: “Stegall’s strategy was to personalize or
humanize his client.” Id. “Consistent with that strategy,” he “offered family and
friends to provide evidence designed, to the extent it could, to counter the brutality of
Konya Edwards’ murder.” Id. “The testimony heard by the jury provided virtually
unchallenged evidence that [petitioner] had a supportive family; a young daughter
whom he loved; relatives who loved him; he enjoyed respectable employment and had
even risked his own life by rushing into a burning house to save a child.” Id. at 58384. “That strategy did put forth a humanizing or personalizing premise to the jury.”
Id. at 584. So, the court found, that strategy “cannot be said to be unreasonable.” Id.
The court added that Dr. Maggio’s report supported the reasonableness of
Stegall’s approach. Id. Although “Dr. Maggio was appointed to perform a competency
evaluation, ... his report provided greater breadth than just opining on competence to
stand trial.” Id. “Notably, Dr. Maggio did not find any defect of intellect, memory or
judgment,” and “there was no major psychiatric diagnosis, but [petitioner] appeared
to have Antisocial Personality Disorder.” Id. “A fair reading of the report would have
ruled out a [M’Naghten] insanity defense and there would be no reason for trial
counsel to develop additional psychological or psychiatric evaluations.” Id. And “[h]ad
trial counsel offered the jury the same evidence that [post-conviction] counsel did, the
prosecutor would be armed not only with Dr. Maggio’s opinions, but the jury would
have heard about [petitioner’s] other bad and criminal conduct.” Id. “Stegall testified
14

at the hearing that he would not have wanted the other evidence of bad and criminal
conduct in the hands of the prosecution to use against his client.” Id. And “he would
not have wanted Dr. Maggio’s to testify about his evaluation of [petitioner].” Id. Thus,
although post-conviction-relief counsel “would have advanced a different theory to
the jury in mitigation,” the court could not “accept what Stegall did as constitutionally
deficient.” Id. at 585. “[T]he strategy to humanize or personalize” petitioner “and its
attendant investigation by trial counsel did not represent deficient performance.” Id.
Second, the court found even if petitioner had proven deficient performance,
his ineffective-assistance claim would still fail because he did not suffer prejudice. Id.
at 585-89. The court concluded that the newly presented evidence “is simply not the
type of evidence from which this Court could find that the jury would have reasonably
likely opted for a life sentence had it been presented at sentencing.” Id. at 587. “Much
of the lay witness testimony presented at the [post-conviction-relief] hearing did not
pertain to [petitioner] personally.” Id. at 586. And “[t]hat which did revealed that
[petitioner] drank beer as a teenager, stole ‘stuff’ with friends, had teenage and older
friends who were bad influences, and that his mother’s method of discipline for her
children was to spank them with a belt.” Id. Petitioner’s “experts’ opinions, much of
which are based on unverified information (and in some instances rumor and mere
speculation), are that [petitioner] suffered trauma in childhood which left him feeling
powerless, helpless, and unsafe.” Id. at 586-87. The court acknowledged that “[t]he
alleged childhood trauma affected [petitioner’s] brain functioning.” Id. at 587. But
although “[t]his impaired brain functioning resulted in some type of diminished
capacity,” it at most “could have influenced” but did not “cause[ ]” petitioner’s “actions
at the time of the murder.” Id. As for the sexual-related allegations, the court noted
that Dr. Mendel’s assertion that petitioner and Terry were sexually abused at the
ages of 6 and 8 was “discredited by Terry’s testimony that the acts happened when
15

he was 12, making [petitioner] 14 at the time.” Id. at 586. The court found that
“[e]ngaging in sexual activity by a 14 year old who was running with other teenagers
his age and older men would not be out of the question,” and that it was “totally
speculative that this caused the trauma Dr. Mendel associated with it.” Id. The court
noted, “Dr. Mendel’s speculation on sexual matters is further demonstrated by his
inclusion of the assertion that [petitioner] had a sexual relationship with his mother,
and if offered in the presence of a trial jury would have been excluded.” Id.
The court concluded that this evidence, “stacked against the brutality of what”
petitioner “did to Konya Edwards,” “could not have caused the jury to consider a life
sentence.” Resp. App. A 587. The evidence showed that petitioner repeatedly raped
Edwards, hit her in the face repeatedly, choked her, forced her to put her chin on a
log and then stomped the back of her neck seven or eight times, did not relent even
as Edwards begged and pleaded for her life, and then choked or drowned her to death,
before setting her body on fire. Id. at 587-88. This evidence supported a finding that
petitioner “committed two separate aggravating circumstances”: he “committed the
capital murder while engaged in the commission of the crime of sexual battery” and
he “committed the capital murder for the purpose of avoiding or preventing a lawful
arrest.” Id. at 588. “In reviewing the evidence in aggravation against the totality of
the available mitigating evidence,” the court concluded, “there is no reasonable
probability that the additional evidence ... would have changed the jury’s verdict.” Id.
588. The new evidence “primarily focused on [petitioner’s] family life and its effects
on him.” Id. at 588. “Certainly [petitioner] did not have an easy life and it was marred
by lifestyle choices of people over whom he had no control. He was exposed at an early
age to circumstances and events to which most are not exposed. He committed crimes,
used drugs and drank.” Id. at 588. But these “[u]nfortunate” features were “not

16

sufficient to disturb the confidence in the jury’s verdict.” Id. at 588-89. “The Court is
satisfied that a just result was reached by the trial jury.” Id. at 589.
d. On June 25, 2020, the Mississippi Supreme Court affirmed the denial of
post-conviction relief. Petitioner sought rehearing, arguing that Andrus v. Texas, 140
S. Ct. 1875 (2020) (per curiam), issued just after the court’s opinion, required reversal.
On October 8, 2020, the Mississippi Supreme Court withdrew its earlier
opinion and issued a modified opinion, again affirming and denying rehearing. Pet.
App. 1-13. As relevant here, the court upheld the trial court’s conclusion that Stegall’s
trial strategy was reasonable. Id. at 13 (¶ 29); see id. at 7-12 (¶¶ 15-26). The court
explained Stegall’s strategy of humanizing petitioner and his efforts to do so at
sentencing. Id. at 9 (¶ 19). “At most,” petitioner’s post-conviction counsel “presented
an alternative reasonable strategy but failed to show that Stegall’s strategy was not
reasonable.” Id. at 10 (¶ 22). The state supreme court noted that petitioner “appears
to argue that Stegall’s inability to remember interviewing mitigation witnesses
means that he did not perform such interviews.” Id. at 9 (¶ 20). The court disagreed:
“Stegall’s inability to remember does not weigh in favor of a finding of
ineffectiveness,” and adding that although petitioner’s mother and sister “did testify
that defense counsel did not speak to them before sentencing,” “their testimony alone
does not undermine the trial court’s finding that Stegall’s personalization strategy
was an acceptable trial strategy.” Id. at 9 (¶ 20). The court also noted the postconviction trial court’s finding that “Dr. Maggio’s report provided reasonable grounds
for trial counsel to forego additional psychological testing before sentencing.” Id. at 910 (¶ 21). And the court said that “counsel’s failure to present testimony from a
neuropsychologist that compromised the trial strategy of humanizing” petitioner “did
not amount to ineffective assistance of counsel.” Id. at 10 (¶ 21).

17

The state supreme court also rejected petitioner’s argument that this Court’s
summary decision in Andrus v. Texas showed that the court had “misapprehended
Strickland’s standard that counsel’s strategic decision must be based on an adequate
investigation.” Id. at 10 (¶ 23). Andrus held that Mr. Andrus’ trial counsel performed
deficiently when he failed to thoroughly investigate Andrus’ background, then
remanded for a determination whether that deficient performance prejudiced
Andrus. Id. at 1881-87. This Court concluded that, “[t]aken together,” three
deficiencies in Andrus’ counsel’s performance “effected an unconstitutional
abnegation of prevailing professional norms.” Id. at 1882. First, “counsel performed
almost no mitigation investigation, overlooking vast tranches of mitigating evidence.”
Id. at 1881; see also id. at 1882-83. Besides being “barely acquainted with the
witnesses who testified during the case in mitigation,” counsel “ignored pertinent
avenues for investigation of which he should have been aware, and indeed was
aware.” Id. at 1882 (internal quotation marks omitted). Second, “due to counsel’s
failure to investigate compelling mitigating evidence, what little evidence counsel did
present backfired by bolstering the State’s aggravation case.” Id. at 1881; see also id.
at 1883-84. Indeed, counsel introduced “seemingly aggravating evidence” and even
made statements that suggested “that Andrus was lying.” Id. at 1883, 1884 (emphasis
in original). Third, “counsel failed adequately to investigate the State’s aggravating
evidence, thereby forgoing critical opportunities to rebut the case in aggravation.” Id.
at 1881-82; see also id. at 1884-85. Further investigation could have rebutted the
argument that “Andrus presented a future danger to society.” Id. at 1885. Having
concluded that counsel performed deficiently, this Court remanded for the state court
to assess prejudice, given the “apparent tidal wave ... of available mitigation evidence
taken as a whole.” Id. at 1887 (internal quotation marks omitted).

18

The Mississippi Supreme Court concluded that Andrus did not call for a
different result here. Pet. App. 10-12 (¶¶ 23-26). To start, the court explained, Andrus
“reaffirmed the deferential standard from Strickland” that the state supreme court
was applying. Id. at 10 (¶ 24). Next, “the circumstances surrounding counsel’s
deficient performance in Andrus are not present here.” Id. at 11 (¶ 25). “In Andrus,
counsel did not simply fail to investigate—he overlooked ‘vast tranches of mitigating
evidence’ that were readily apparent to him, and ‘would have led a reasonable
attorney to investigate further.’” Id. (quoting Andrus, 140 S. Ct. at 1881, 1883;
citation and brackets omitted). “That is not the case here. Stegall did not disregard[ ]
... multiple red flags’ with zero justification. Id. at 11 (¶ 26) (quoting Andrus, 140 S.
Ct. at 1883). “Rather, he made very clear that he pursued a tactical decision to
humanize [petitioner].” Id. And petitioner had not carried his burden to show that
petitioner’s performance was deficient. Id.
Having upheld the trial court’s ruling “that Stegall’s performance was not
deficient,” the court did not “address the prejudice” under Strickland. Id.
In a separate opinion concurring in the result, two justices concluded that
petitioner had established deficient performance, but concluded that affirmance was
warranted because the post-conviction trial court reasonably concluded that
petitioner “failed to meet his burden to prove prejudice.” Id. at 13 (¶ 31). The separate
opinion would have upheld the lower court’s finding that, “given the brutality of the
crime, no reasonable probability existed that [petitioner’s] alleged childhood trauma
and impaired brain function would have prompted a jury to impose a life sentence
instead of the death penalty.” Id. at 16 (¶ 35); see id. at 23 (¶ 46).
ARGUMENT
Petitioner challenges the Mississippi Supreme Court’s decision upholding a
fact-intensive determination that his trial counsel performed reasonably at the
19

sentencing phase of his trial. In particular, petitioner contends that the state supreme
court departed from this Court’s Sixth Amendment cases and that the court erred in
holding that trial counsel performed reasonably. See Pet. ii. The petition should be
denied. The Mississippi Supreme Court soundly applied Strickland v. Washington,
466 U.S. 668 (1984), and reasonably upheld the post-conviction court’s determination
that trial counsel pursued a reasonable sentencing-phase strategy. The judgment
below rests on a fact-intensive assessment of the evidence and does not raise any
recurring legal issue warranting this Court’s review. Nor does this Court’s decision
in Andrus v. Texas, 140 S. Ct. 1875 (2020), supply a basis for disturbing that
judgment. The Mississippi Supreme Court considered Andrus and correctly held that
it did not call for a different outcome here. None of the remaining traditional criteria
for certiorari is satisfied. And review would be particularly unwarranted here, where
the judgment below is independently supported by the fact that petitioner was not
prejudiced by his counsel’s performance. Further review is not warranted.
1. The Mississippi Supreme Court soundly applied this Court’s caselaw in
upholding the post-conviction trial court’s determination that trial counsel pursued a
reasonable sentencing-phase strategy.
To prevail on his ineffective-assistance claim, petitioner was required to show
that trial counsel’s performance was deficient and that the deficient performance
prejudiced him. Strickland, 466 U.S. at 687. There is “a strong presumption that
counsel’s conduct falls within the wide range of reasonable professional assistance,”
and petitioner was required “overcome the presumption that, under the
circumstances, the challenged action might be considered sound trial strategy.” Id. at
689 (internal quotation omitted). He had to show that “counsel’s representation fell
below an objective standard of reasonableness.” Id. at 688.

20

The Mississippi Supreme Court invoked these standards (Pet. App. 7-8 (¶¶ 1516)) and soundly applied them to uphold the post-conviction court’s finding that trial
counsel’s strategy of humanizing and personalizing petitioner was reasonable (id. at
8-10 (¶¶ 17-22)).
Trial counsel faced a daunting task at sentencing. The jury had just convicted
of capital murder, kidnapping, and rape, after hearing that petitioner repeatedly
raped Konya Edwards, hit her in the face time and again, choked her, forced her to
put her chin on a log and then stomped the back of her neck seven or eight times,
choked her and drowned her, set her body on fire, then took her black dress home
with him where, 45 minutes after killing her, he was taking photographs with friends
and “acting like nothing had happened.” Walker v. State, 671 So. 2d 581, 590 (Miss.
1995). Facing that steep uphill battle, trial counsel pursued a sentencing-phrase
strategy of humanizing petitioner to counter the brutality of petitioner’s acts. Resp.
App. A 583, 585. To humanize petitioner to the jury, trial counsel provided the jury
with “virtually unchallenged evidence that [petitioner] had a supportive family; a
young daughter whom he loved; relatives who loved him; he enjoyed respectable
employment and had even risked his own life by rushing into a burning house to save
a child.” C.P. 583-84; Pet. App. 16. The jury still sentenced petitioner to death.
As the Mississippi Supreme Court concluded, however, petitioner failed to
rebut the presumption that trial counsel’s sentencing phase strategy of humanizing
petitioner was reasonable. Pet. App. 10 (¶ 22). Petitioner presented only “an
alternative reasonable strategy” that he thought trial counsel should have employed.
Id. But as the state supreme court recognized, “[t]here are countless ways to provide
effective assistance in any given case. Even the best criminal defense attorneys would
not defend a particular client in the same way.” Id. (quoting Strickland, 466 U.S. at
689). And the record showed reasonable grounds for trial counsel not to pursue the
21

line of attack that petitioner now advocates. Indeed, the alternative strategy that
petitioner now advocates would have presented significant risk to him. The pretrial
report contained evidence that petitioner expressed no remorse for Edwards’ murder,
evidence of other criminal conduct, and evidence of substance abuse. Resp. App. A
584. Stegall testified that he would not have wanted to present that type of evidence
to the sentencing jury or to put such information in the hands of the prosecution. Pet.
App. 17 (¶ 37). This reflected a reasonable strategy. The Strickland Court itself found
that trial counsel’s decision not to seek a psychiatric evaluation in that case was
reasonable because it denied the State the opportunity to rebut the mitigation case
with its own psychology experts. Strickland, 466 U.S. at 677. And in Wiggins v.
Smith, this Court recognized that when the defendant’s history is double edged, a
limited mitigation investigation may be justified. 539 U.S. 510, 535 (2003) (citing
Burger v. Kemp, 483 U.S. 776 (1987); Darden v. Wainwright, 477 U.S. 168 (1986)).
Indeed, in Andrus v. Texas, one of three deficiencies that this Court stressed was
counsel’s presentation of evidence that “backfired by bolstering the State’s
aggravation case.” 140 S. Ct. 1875, 1881 (2020). Evidence that petitioner now claims
trial counsel should have discovered and presented likewise could have backfired by
contradicting or diluting the mitigation evidence trial counsel presented to the
sentencing jury. The Mississippi Supreme Court thus soundly concluded that
Stegall’s sentencing strategy was reasonable and obviated the need to pursue a
different type of mitigation case, one that could be considered double-edged.
Petitioner’s arguments against the state supreme court’s decision lack merit.
First, petitioner contends that trial counsel performed deficiently because his
mitigation investigation and presentation “left the jury with no basis to vote for a life
sentence.” Pet. 26; see also id. at 26-30. Petitioner suggests that the positive
mitigation evidence presented by trial counsel was of little value, and he faults
22

counsel’s short closing argument. Id. at 26-29. But the proper measure of counsel’s
performance under Strickland is not the success of the strategy, but whether counsel
exercised reasonable professional judgment in employing the particular strategy.
Strickland, 466 U.S. at 699. Trial counsel’s strategic decision to present positive
evidence about petitioner’s life, rather than negative evidence about petitioner, was
reasonable given the brutality of the crime. At bottom, petitioner presents an
alternate sentencing strategy that Stegall could have employed. But “[t]here are
countless ways to provide effective assistance in any given case. Even the best
criminal defense attorneys would not defend a particular client in the same way.” Id.
at 689. Showing an alternative strategy does not establish a constitutional violation.
Second, petitioner faults his counsel for not investigating his life and
background more extensively. See Pet. 30-34; see also, e.g., id. at 25-26. But the record
supports the reasonableness of the sentencing strategy that trial counsel employed,
and provides reasonable grounds for trial counsel’s not pursuing the line of
investigation that petitioner now demands. It bears noting, moreover, that in faulting
his trial counsel’s investigation, petitioner makes factual assertions that the record
does not support and that the state courts did not accept. Petitioner maintains, for
example, that petitioner’s trial counsel “admitted he did not prepare for a potential
capital murder penalty phase.” Pet. ii. But this claim relies heavily on Stegall’s failure
of memory. In making such claims, petitioner “appears to argue,” as the Mississippi
Supreme Court recognized, “that Stegall’s inability to remember interviewing
mitigation witnesses means that he did not perform such interviews, but Stegall’s
inability to remember is at best a nullity.” Pet. App. 9 (¶ 20). Stegall’s inability to
remember the mitigation investigation does not mean that a mitigation investigation
was not conducted. And Stegall testified that co-counsel would have been the one who
spoke with petitioner’s family and otherwise investigated. Resp. App. B 281. And the
23

sentencing-phase evidence presented shows that Stegall or co-counsel spoke at least
with petitioner, his mother, a brother, a sister, and an employer, to discover the
positive mitigation evidence he strategically chose to present. Walker, No. 1:97-cv00029-ks (Doc. 118 at 89-94, 96). Stegall also testified that co-counsel would have
been responsible for investigating, while Stegall would have reviewed what the
investigation uncovered in developing a trial strategy. Pet. App. B 281. Petitioner
failed to call co-counsel or otherwise establish that co-counsel did not conduct the
investigation petitioner claims was lacking.
This Court has reversed lower-court decisions rejecting ineffective-assistance
claims where the record clearly established that trial counsel failed to conduct an
adequate mitigation investigation. For instance, in Rompilla v. Beard, 545 U.S. 374,
383-86 (2005), the record showed that trial counsel failed to examine Rompilla’s
“readily available” court file on a prior conviction that counsel was “on notice” the
prosecution would use as evidence in aggravation at sentencing and that contained
otherwise undiscovered mitigation evidence about petitioner’s childhood and mental
health. In Williams v. Taylor, 529 U.S. 362, 363, 373 (2000), trial counsel testified in
state habeas proceedings that he failed to obtain “extensive records graphically
describing Williams’ nightmarish childhood,” not as a tactical decision, but because
he erroneously believed that “ ‘state law didn’t permit it.’ ” In Wiggins v. Smith, 539
U.S. 510, 516, 523-24 (2003), “the record demonstrate[d]” that trial counsel
unreasonably abandoned their mitigation investigation after obtaining a presentence investigation report and social-service records rather than following the
leads contained in the records that would have uncovered evidence of “severe physical
and sexual abuse petitioner suffered at the hands of his mother and while in the care
of a series of foster parents.” And in Andrus v. Texas, 140 S. Ct. 1875, 1882 (2020)
(per curiam), “[o]ver and over during the habeas hearing, counsel acknowledged that
24

he did not look into or present the myriad tragic circumstances that marked Andrus’
life,” including materials prepared by a mitigation expert before trial. No such record
evidence exists here to support a finding that trial counsel ignored readily available
evidence or failed to pursue obvious leads in their hands.
Not only does the record fail to establish that trial counsel failed to conduct a
mitigation investigation, but the mitigation evidence that post-conviction counsel
uncovered was not the type of “readily available” evidence as was the case Rompilla,
Williams, Wiggins, and Andrus. Instead, petitioner’s post-conviction counsel had 15
years to uncover and produce the mitigation evidence he faults trial counsel for not
discovering and presenting in the ten months he represented petitioner. (Petitioner’s
habeas counsel, appointed in 1997, is the same counsel that presented mitigation
evidence for the first time in state court in 2012 that is the basis of petitioner’s claim
that trial counsel’s mitigation investigation was deficient. See Walker v. Epps, No.
1:97-cv-00029-ks (S.D. Miss. March 27, 2012) (Doc. 7); Walker v. State, 2012-DR00102-SCT (docket entry dated Jan. 17, 2012)).
In sum, the state supreme court correctly upheld the post-conviction trial
court’s finding that petitioner failed to show deficient performance.
2. Besides arguing that this Court’s review is warranted because the lower
court erred, petitioner also contends that the judgment below conflicts with Andrus
v. Texas, 140 S. Ct. 1875 (2020) (per curiam). Pet. 10-11, 40. This argument fails too.
Andrus concluded that, “[t]aken together,” three deficiencies in Andrus’
counsel’s performance “effected an unconstitutional abnegation of prevailing
professional norms.” 140 S. Ct. at 1882. This case does not raise those deficiencies.
First, in Andrus “counsel performed almost no mitigation investigation, overlooking
vast tranches of mitigating evidence.” Id. at 1881; see also id. at 1882-83. Besides
being “barely acquainted with the witnesses who testified during the case in
25

mitigation,” counsel “ignored pertinent avenues for investigation of which he should
have been aware, and indeed was aware.” Id. at 1882 (internal quotation marks
omitted). Here, by contrast, trial counsel pursued a reasonable strategy and the
record discloses sound reasons not to pursue the alternative strategy that petitioner
now presses. Further, Andrus’ counsel admitted that he did not conduct a mitigation
investigation and offered no reason for the failure. Id. at 1878, 1882 (“Over and over
during the habeas hearing, counsel acknowledged that he did not look into or present
the myriad tragic circumstances that marked Andrus’ life.”). Petitioner did not
establish that Stegall failed to conduct a mitigation investigation, relying heavily
instead on Stegall’s lack of memory to suggest a mitigation investigation was not
conducted. Pet. App. 9 (¶ 20). More: unlike the record here, the record in Andrus
clearly established that trial counsel had extensive, compelling mitigation evidence
at his fingertips that he neglected to further explore and present at sentencing. As
the Mississippi Supreme Court noted, “In Andrus, counsel did not simply fail to
investigate—he overlooked ‘vast tranches of mitigating evidence’ that were readily
apparent to him ... and ‘would [have] le[d] a reasonable attorney to investigate
further.’” Id. at 11 (¶ 25) (quoting Andrus, 140 S. Ct. at 1881, 1883). That “readily
available” evidence included “materials prepared by a mitigation expert well before
trial” that counsel seemed unfamiliar with at trial which contained “multiple red
flags,” that “‘would [have] le[d] a reasonable attorney to investigate further.’” Andrus,
140 S. Ct at 1878, 1882-83. By contrast, there is no record evidence that the new
mitigation evidence that petitioner’s post-conviction counsel had 15 years to discover
and present in state court was readily available to trial counsel.
Second, in Andrus, “due to counsel’s failure to investigate compelling
mitigating evidence, what little evidence counsel did present backfired by bolstering
the State’s aggravation case.” Id. at 1881; see also id. at 1883-84. Indeed, counsel
26

introduced “seemingly aggravating evidence” and even made statements that
suggested “that Andrus was lying.” Id. at 1883, 1884 (emphasis in original).
Presenting the double-edged evidence petitioner now presses could have also
backfired. Petitioner assumes that the new mitigation evidence “would have helped
to contextualize the state’s case” in a way helpful to petitioner. Pet. 33. But presenting
evidence about alcohol and drug use and an ex-girlfriend’s claim that petitioner had
a violent temper could have defeated trial counsel’s strategy of humanizing him.
Third, in Andrus “counsel failed adequately to investigate the State’s
aggravating evidence, thereby forgoing critical opportunities to rebut the case in
aggravation.” Id. at 1881-82; see also id. at 1884-85. Further investigation could have
rebutted the argument that “Andrus presented a future danger to society.” Id. at
1885. But the evidence that petitioner faults trial counsel for not presenting would
not have rebutted the State’s case in aggravation. None of the new evidence pertains
to or overcomes the submitted aggravating circumstances—that petitioner killed
Edwards while engaged in the commission of sexual battery and that the capital
crime was committed for the purpose of avoiding or preventing a lawful arrest.
On top of all this, the readily available mitigation evidence that Andrus’
counsel failed to explore is qualitatively different from the mitigation evidence that
petitioner claims that Stegall failed to discover and present. Andrus was one of five
children his mother had by different fathers, none of whom “stayed as part of the
family.” Id. at 1879. When Andrus was six years old, his mother began selling drugs
out of their home and engaging in prostitution. Id. at 1877, 1879. Andrus’ mother’s
string of drug-addicted boyfriends abused Andrus’ mother in their home and one
raped one of Andrus’ young siblings. Id. at 1879. By the time Andrus was twelve years
old, he “assumed responsibility as head of the household for his four siblings,
including his older brother with special needs” due to his mother’s drug addiction and
27

frequent absence from the home. Id. at 1880. Andrus also had a recorded history of
mental illness, beginning with a diagnosis of affective psychosis at age ten or eleven.
Id. And Andrus began engaging in criminal activity that led to incarceration at age
sixteen. Id. Available records also showed Andrus’ history of “multiple instances of
self-harm and threats of suicide.” Id.
By contrast, as the post-conviction trial court recognized, the mitigation
evidence that petitioner claimed that trial counsel should have discovered and
presented was mostly unrelated to “[petitioner] personally,” and “[t]hat which did
revealed that [petitioner] drank beer as a teenager, stole ‘stuff’ with friends, had
teenage and older friends who were bad influences, and that his mother’s method of
discipline for her children was to spank them with a belt.” Resp. App. A 586. That
court also found that petitioner’s experts’ opinions, which were largely “based on
unverified information (and in some instances rumor and mere speculation), [were]
that [petitioner] suffered trauma in childhood which left him feeling powerless,
helpless, and unsafe.” Id. at 586-87. They opined that the “alleged childhood trauma
affected [petitioner’s] brain functioning,” and the “impaired brain functioning
resulted in some type of diminished capacity which could have influenced, but not
caused, [petitioner’s] actions at the time of the murder.” Id. at 587. This new
mitigation evidence that petitioner’s post-conviction counsel presented after 15 years
on the case is not the “apparent tidal wave available mitigating evidence” that
Andrus’ counsel had at the ready but failed to use. Andrus, 140 S. Ct. at 1887
(internal quotations omitted).
In short, Andrus does not supply a basis for disturbing the judgment below.
3. No other consideration supports a grant of certiorari. Petitioner does not
claim that this case presents a recurring question of law that has divided the lower
courts. Indeed, petitioner does not even seek plenary review. The petition concludes:
28

“This Court should grant certiorari and either issue a summary reversal of the
Mississippi Supreme Court’s judgment, or remand to that Court with instructions to
reconsider how its opinion can possibly be reconciled with the substantial precedent
summarized by Andrus.” Pet. 40. For reasons already explained, neither request is
sound. The Mississippi Supreme Court was correct, so reversal is not warranted at
all—and certainly not summary reversal. And vacatur under Andrus is not
warranted: the state supreme court already accounted for Andrus and soundly held
that this case did not call for a different outcome. The petition thus makes no case for
plenary review and does not make a sound case for summary review.
4. Finally, there is strong reason to deny review even if this Court had
misgivings about trial counsel’s performance: This Court’s intervention would not
affect the outcome of the post-conviction proceeding because, as the post-conviction
trial court concluded, petitioner failed to establish that his counsel’s performance
prejudiced him.
A successful ineffective-assistance-of-counsel claim requires a showing of both
deficient performance and prejudice. On prejudice, the defendant must show “there
is a reasonable probability that, but for counsel’s unprofessional errors, the result of
the proceeding would have been different.” Strickland, 466 U.S. 668 at 694. Here,
petitioner must prove that “absent the errors, the sentencer—including an appellate
court, to the extent it independently reweighs the evidence—would have concluded
that the balance of aggravating and mitigating circumstances did not warrant death.”
Id. at 695. Prejudice is not established if “[t]he evidence that” petitioner “says his
trial counsel should have offered at the sentencing hearing would barely have altered
the sentencing profile presented to the sentencing [authority].” Id. at 699-700.
As the post-conviction trial court concluded, trial counsel’s sentencing
performance did not prejudice petitioner. Resp. App. A 588-89. That court found that
29

“[e]vidence of [petitioner’s] ‘childhood trauma’ stacked against the brutality of what
he did to Konya Edwards ... could not have caused the jury to consider a life sentence.”
Id. Again: the jury convicted of capital murder, kidnapping, and rape of Konya
Edwards, after hearing that petitioner repeatedly raped her, hit her in the face when
she resisted, choked her, forced her to put her chin on a log and then stomped the
back of her neck seven or eight times, choked her and drowned her, set her body on
fire with gasoline, then took her black dress home with him where, 45 minutes after
killing her, he was talking photographs with friends and “acting like nothing had
happened.” Walker, 671 So. 2d at 590. After recounting this evidence, see Resp. App.
A 587-88, the post-conviction trial court weighed it against the mitigation evidence
presented at trial and the new mitigation evidence that “revealed that [petitioner]
drank beer as a teenager, stole ‘stuff’ with friends, had teenage and older friends who
were bad influences,” disclosed “that his mother’s method of discipline for her
children was to spank them with a belt,” and provided speculative testimony of
petitioner’s expert. Id. As the court concluded, “this is simply not the type of evidence
from which this Court could find that the jury would have reasonably likely opted for
a life sentence had it been presented at sentencing.” Id. at 586. Given the brutality of
the crime, there is no reasonable probability that had Stegall presented a badchildhood mitigation case, petitioner would not have received the death penalty. The
post-conviction trial court’s weighing of the aggravating circumstances evidence and
the totality of available mitigation evidence is sound and consistent with this Court’s
precedent. Indeed, even the state supreme court justices who believed that
petitioner’s counsel performed deficiently concluded that affirmance was appropriate
because petitioner had not established prejudice. Pet. App. 13, 23 (¶¶ 31,46).
Petitioner’s arguments on prejudice lack merit. First, he emphasizes that the
failure to present the evidence that he now identifies was prejudicial because his
30

crimes “can only be understood with the benefit of this evidence.” Pet. 35. He adds:
“[t]he limited mitigation presented at trial ... left jurors with the seemingly
unanswerable question of how a person with a normal upbringing could one day
commit sexual violence.” Id. But the violence that petitioner inflicted on Konya
Edwards before murdering her was so horrible, depraved, and brutal that there is no
reasonable probability that the evidence about petitioner’s childhood and alleged
brain impairment would have changed a juror’s mind. Notably, the brutality of
Edwards’ murder is so overwhelming that petitioner doesn’t mention the
“kidnapping, rape, sexual battery, and murder of Konya Edwards” until the 40th and
final page of the petition.
Second, petitioner maintains that, under several of this Court’s cases, not
presenting the evidence that he now identifies was prejudicial. Pet. 35-37. But
ineffective assistance turns on the facts of each case. See Williams, 529 U.S. at 391
(Strickland “of necessity requires a case-by-case examination of the evidence”). Still,
the undiscovered mitigation evidence in the cases relied on by petitioner was extreme
and materially different from the evidence here.
In Rompilla, undiscovered mitigation evidence showed that both of Rompilla’s
parents were “severe alcoholics who drank constantly,” including during pregnancy,
and Rompilla and his siblings “eventually developed serious drinking problems.” 545
U.S. 374 at 391-92. Rompilla’s father frequently beat Rompilla and his mother. Id. at
392. “His parents fought violently, and on at least one occasion his mother stabbed
his father.” Id. “All of the children lived in terror.” Id. Rompilla’s father locked
petitioner and a brother “in a small wire mesh dog pen that was filthy and excrement
filled.” Id. Rompilla’s childhood home “had no indoor plumbing” and he “slept in the
attic with no heat, and the children were not given clothes and attended school in
rags.” Id. Indeed, the respondent in Rompilla “d[id] not even contest the claim of
31

prejudice.” Id. at 290. In Williams, this Court agreed with the state post-conviction
court that there was a reasonable probability that the jury would have reached a
different sentence had it been presented with evidence of Williams’ “nightmarish
childhood,” which included the facts that he lived in a filthy home with human waste
all over the floor, his father physically abused him, his parents were incarcerated for
neglecting him and his siblings, he was placed with an abusive foster family, he was
“borderline mentally retarded,” and he had entered the juvenile justice system three
times between age 11 and 15. 529 U.S. at 395-96. And in Wiggins, the new mitigation
evidence showed that Wiggins’ “chronic alcoholic” mother was physically abusive and
left him and his siblings “home alone for days, forcing them to beg for food and to eat
paint chips and garbage.” 539 U.S. at 517. She once “forced petitioner’s hand against
a hot stove burner-an incident that led to petitioner's hospitalization.” Id. His mother
“had sex with men while her children slept in the same bed.” Id. Beginning at age six,
Wiggins was placed in a series of foster homes where two foster mothers physically
abused him and a foster father “repeatedly molested and raped him”; in another foster
home, “the foster mother’s sons allegedly gang-raped him on more than one occasion.”
Id. Wiggins was homeless after running away from a foster home at age 16. Later, he
was “allegedly sexually abused by [a Job Corps] supervisor.” Id. at 516-17. The Court
found that it was reasonably likely that had the sentencing jury would have reached
a different verdict had it been presented with evidence of the “nature and the extent
of the abuse” that Wiggins suffered. Id. at 535-36. 3
Petitioner claims that in Sears v. Upton, 561 U.S. 945 (2010), this Court found Strickland
prejudice “in light of evidence of sexual abuse petitioner suffered at the hands of an
adolescent male cousin, verbal parental abuse, frontal lobe abnormalities, and substance
abuse.” Pet. 36. But the Court actually reversed because the state court failed to apply the
proper prejudice inquiry (after finding that petitioner showed deficient performance), and
remanded to the lower court to “reweigh[] in the first instance” the evidence presented at
sentencing and the evidence presented in post-conviction proceedings against the
aggravating evidence presented at trial. Id. at 956.

3

32

The mitigation evidence that trial counsel unreasonably failed to discover and
present in Rompilla, Williams, and Wiggins is qualitatively different from the new
mitigation evidence that petitioner presented here. Although the petition repeatedly
refers to undiscovered evidence of sexual impropriety to which petitioner was exposed
and experienced, Pet. 7-12, 15, 18-20, 29, 33-36, the only evidence of sexual
impropriety against petitioner himself presented at the evidentiary hearing was that
14-year-old petitioner and his 12-year-old brother had sexual contact with “older
kids.” Resp. App. B 214-16, 221. 4 Anita did testify that when petitioner was in
kindergarten, a babysitter “pulled his pants off or something like that,” id. at 114115, but no further evidence established that the encounter was sexual in nature.
And despite “a considerable amount of uncertainty,” petitioner alleges some
unspecified sexual inappropriateness between petitioner and his mother and “the
possibility ... that actual sexual activity took place between mother and son.” Pet. 10
n. 9. Petitioner did present one witness at the hearing who either saw or did not see
petitioner “in a playful type situation,” possibly pinch his mother’s breast area. Resp.
App. B 252-253. 5 But this does not compare to the uncovered evidence in Rompilla,
Williams, and Wiggins. The sum of the new mitigation evidence presented at the

Petitioner’s expert, Dr. Mendel, claimed that petitioner and Terry were six and eight at the
time. Resp. App. B 329. But Terry testified he was around twelve, making petitioner around
fourteen, at the time of the sexual encounter. Resp. App. B 216.
4

Petitioner’s sexual-conduct-related evidence that did not involve him included his stepfather’s sexual relationship with a teenage niece. Resp. App. B 123-24, 214. Petitioner also
cites Dr. Mendel’s claim that the mother of petitioner’s daughter, Robin Saucier Marroy, was
“sold at age 11 to a man in his 40s named Leroy Marroy.” Id. at 332; Pet. 10-11. But Amanda
and Anita, who actually knew Robin and Leroy, testified that they married when Robin was
18 and Leroy was “about 40, 50.” Resp. App. B 90-91, 132. Terry, on the other hand, said that
when he was around twelve, Robin was his next-door neighbor and girlfriend. Id. at 218.
When asked about her relationship with Leroy Marroy at that time, he replied, “I’m going to
tell you there was—I don’t think there was a relationship.” Id. This evidence would not have
altered the jury’s verdict because it was not “relevant to assessing a defendant’s moral
culpability.” Wiggins, 539 U.S. at 535.
33
5

evidentiary hearing was that petitioner’s family was poor, he drank beer and stole as
a teenager, he had older friends who were bad influences, as a young teen he engaged
in sex acts with older teens, and his mother’s method of discipline for her children
was to spank them with a belt. Petitioner’s childhood was not like those at issue in
Rompilla, Williams, and Wiggins. Nor were the crimes in those cases as brutal as the
murder of Konya Edwards. See Rompilla, 545 U.S. at 377 (bar owner stabbed to death
and body set on fire); Williams, 529 U.S. at 367-68 (elderly victim beaten with
mattock during robbery); Wiggins, 539 U.S. at 514 (elderly victim drowned in bathtub
during home invasion). The post-conviction trial court was thus correct when it
weighed the totality of available mitigation evidence against the horrific details of
petitioner’s crime and concluded that no juror would have voted for life had it been
presented with the new evidence.
Third, petitioner contends that “a finding of prejudice is not foreclosed by the
existence of particularly aggravating circumstances or the shocking nature of a
particular crime.” Pet. 37; see also id. at 37-40. But the post-conviction trial court did
not hold otherwise. Rather, that court correctly assessed prejudice by weighing all of
the mitigation evidence (that presented at trial and that presented at the postconviction evidentiary hearing) against the evidence in aggravation. Resp. App. A
586-89. That is what this Court’s precedent calls for: “In assessing prejudice, we
reweigh the evidence in aggravation against the totality of available mitigating
evidence.” Wiggins, 539 U.S. at 534.
This Court has held that the Sixth Amendment requires effective assistance of
counsel to ensure the defendant receives a fair trial. Strickland, 466 U.S. at 685-86.
Petitioner received the effective assistance of counsel and a fair trial. He was not
sentenced to death because of his attorneys’ deficient performance. He was sentenced
to death because of the brutality of the crime. He cannot show that any juror would
34

have favored a lesser sentence just because petitioner’s family was poor, he drank
beer and engaged in theft as a teenager, he had older friends who were bad influences,
as a young teen he engaged in sex acts with older teens, and his mother’s method of
discipline for her children was to spank them with a belt. This Court should not take
the significant step of disturbing the Mississippi Supreme Court’s judgment. The
result would be the same on remand.
CONCLUSION
The petition for a writ of certiorari should be denied.
Dated: May 19, 2021.

Respectfully submitted,
LYNN FITCH
Attorney General
By:

LADONNA C. HOLLAND
Special Assistant Attorney General
Counsel of Record
STATE OF MISSISSIPPI
OFFICE OF THE ATTORNEY GENERAL
P.O. Box 220
Jackson, Mississippi 39205-0220
(601) 359-3827
ladonna.holland@ago.ms.gov
Counsel for Respondent

35

